<html>
<title> - CLOSING THE GAPS IN AIR CARGO SECURITY</title>
<body><pre>[Senate Hearing 111-1105]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1105

                 CLOSING THE GAPS IN AIR CARGO SECURITY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2010

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>









                  U.S. GOVERNMENT PRINTING OFFICE
63-867 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
CHRISTOPHER A. COIONS, Delaware

                  Michael L. Alexander, Staff Director
              Jason M. Yanussi, Professional Staff Member
             Elyse F. Greenwald, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                  Luke P. Bellocchi, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk













                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Levin................................................    13
    Senator Brown................................................    16
    Senator Burris...............................................    18
    Senator Carper...............................................    21
    Senator Ensign...............................................    23
Prepared statements:
    Senator Lieberman............................................    31
    Senator Collins..............................................    33

                               WITNESSES
                       Tuesday, November 16, 2010

Hon. John S. Pistole, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security...........     5
Hon. Alan D. Bersin, Commissioner, U.S. Customs and Border 
  Protection, U.S. Department of Homeland Security...............     7

                    Alphabetical Order of Witnesses

Bersin, Hon. Alan D.:
    Testimony....................................................     7
    Joint prepared statement with Mr. Pistole....................    36
Pistole, Hon. John S.:
    Testimony....................................................     5
    Joint prepared statement with Mr. Bersin.....................    36

                                APPENDIX

Responses to post-hearing questions submitted for the Record from 
  Mr. Pistole and Mr. Bersin.....................................    48

 
                 CLOSING THE GAPS IN AIR CARGO SECURITY

                              ----------                              


                       TUESDAY, NOVEMBER 16, 2010

                                     U.S. Senate,  
                       Committee on Homeland Security and  
                                      Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:20 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, presiding.
    Present: Senators Lieberman, Levin, Carper, Burris, 
Collins, Brown, and Ensign.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon. The hearing will come 
to order. Our subject today is air cargo security.
    Beginning with the attacks against America on September 11, 
2001, our terrorist enemies have consistently sought to use 
airplanes as weapons of mass destruction, and more generally, 
they have seen in our aviation system a strategic choke point 
of international transit and commerce that could be brought to 
a halt, or at least stopped, through terrorist attacks. We have 
seen shoe bombers, liquid bombers, and underwear bombers. Again 
and again, terrorists have sought different ways to blow up an 
airplane.
    In the most recent attempt, of course, terrorists hid bombs 
inside the toner cartridges of printers and sent them to the 
United States as air cargo. This plot, as the others before it, 
was thwarted, in this case largely because of extraordinary 
intelligence, and here we give thanks and credit to our friends 
and allies in Saudi Arabia. But there was in this an element of 
good fortune or luck, and luck, of course, is not a strategy to 
defend our Nation from a threat of terrorists.
    As this most recent plot demonstrates, good intelligence 
and strong foreign partnerships are critically important. But I 
think the point that remains with us, and it is that phrase 
that echoes from the 9/11 Commission Report, the Kean-Hamilton 
Report, in which they said September 11, 2001, occurred because 
of a failure of imagination, our failure to imagine that people 
could possibly try to do what the terrorists did to us on 
September 11, 2001. Every time one of these events happens, it 
compels us to figure out how we can better anticipate 
terrorists' next move, not just react to the last one.
    Former Transportation Security Administration (TSA) 
Administrator and Deputy Secretary of the Department of 
Homeland Security (DHS) Admiral James Loy recently said in an 
op-ed in the Washington Post that after the September 11, 2001 
hijackings, we hardened cockpit doors. Then the terrorists 
tried a shoe bomb, and now we remove our shoes for inspection 
at airports. Then the terrorists tried liquid explosives hidden 
in sports drinks, targeting seven planes flying over the 
Atlantic Ocean, and we cracked down on liquids that could be 
brought on board. Then the underwear bomber came close to 
bringing down a plane over Detroit, and now we have gone to 
full body imaging. And, of course, I support every one of those 
steps we have taken. Now terrorists are going after a weak spot 
in cargo inspections, and we will respond to that, as well we 
should, but they, our enemies, will keep looking for new 
vulnerabilities, and we have to continue to try to think as 
they would and raise our defenses before they strike.
    We were lucky, as I have said, that none of these attempts 
succeeded, but they will continue to probe our weaknesses, 
attempting to detect our flaws and then defending against them, 
and we have to make sure that not only does our luck not run 
out, but that we are prepared to stop whatever they try.
    Here are some of the questions that I would like to ask our 
witnesses today. Clearly, both the gathering of intelligence 
and acting on it is crucial, and I want to ask how we can 
improve our intelligence beyond even where it is now. 
Intelligence is always important in a war, never more important 
than in the particular war with Islamist extremist terrorists 
that we are fighting today for all the reasons that I have just 
talked about.
    Threats of terrorism come from within the United States or 
from abroad. Our ability to deter, detect, or intercept that 
foreign threat here is limited by our own sovereignty. We have 
to depend on our foreign partners to implement strong security 
programs, and I want to ask both of you what we are doing to 
strengthen those relationships and implement international 
security programs. Obviously, we have limited direct control 
over incoming passenger flights and cargo flights.
    While our government has achieved 100 percent screening of 
air cargo on domestic passenger flights, which is a significant 
accomplishment consistent with the 9/11 legislation we adopted, 
only about 60 percent of cargo on passenger flights coming into 
the United States from abroad is screened, and there is a kind 
of patchwork system of cargo shipments on all-cargo aircraft. 
So naturally, I want to ask how we can improve that and 
convince our foreign countries to expand and accelerate their 
screening of cargo coming either on passenger flights or all-
cargo flights to the United States.
    Right now, we require air carriers coming from Europe, 
Asia, Africa, and South America to provide cargo manifest 
information after the plane has taken off, 4 hours before it is 
due to arrive. Can we move that time line up? Is there 
additional or different information that may be helpful in 
identifying high-risk cargo?
    And finally, how are we preparing to identify the next gap 
terrorists will likely try to exploit? Do we have an 
institutional way, as difficult and unprecedented as this enemy 
is in threatening our homeland security, to try to think ahead 
of them?
    Our witnesses today are, of course, ideally positioned by 
the offices they hold now and by their experience to help us 
answer these questions--TSA Administrator John Pistole and 
Customs and Border Protection (CBP) Commissioner Alan Bersin. I 
thank both of you for being here and look forward to your 
testimony.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, 
your testimony, particularly when you were quoting Admiral Loy, 
shows us that the terrorists remain unflagging in their 
determination to exploit vulnerabilities in the security 
systems developed since September 11, 2001.
    In the past 12 months, the United States has narrowly 
avoided two terrorist plots directed against aviation. The 
first was averted by sheer luck and the quick action of the 
passengers and crew in the skies above Detroit on Christmas 
Day. The second, which we just discussed, was disrupted due to 
intelligence shared by our allies and the hard work of Federal 
law enforcement, intelligence, and homeland security officials 
and several international partners, and I want to commend the 
two leaders who are before us today, who I know worked around 
the clock once they were informed of this threat.
    In these two failed attacks, we see the fanaticism and 
patience of our enemies. Though thwarted, these plots should 
prompt us to reexamine whether our priorities are correct and 
our resources properly deployed.
    Today, the Committee examines the most recent attempted 
attack. We all are aware that last month, terrorists exploited 
weaknesses in the air cargo security system and succeeded in 
putting explosives inside printer cartridges bound for this 
country. The bombs ultimately found their way into the cargo 
bays of airplanes, including at least one passenger plane. If 
detonated, the results could have been catastrophic.
    This is the nature of the terrorist threat that we face. It 
is dynamic. It is ever changing. The Chairman reminds us of the 
caution of the 9/11 Commission that we cannot suffer again from 
a failure of imagination. As we strengthen our security 
systems, the terrorists counter with a different kind of threat 
aimed at a different target using different means.
    The potential to plant an explosive somewhere in the 
millions of pieces of air cargo shipped around the world daily 
is clearly a vulnerability. The Department of Homeland Security 
must use this near miss to redouble its work with other 
countries, airline carriers, and shippers to tighten the 
security network. We must move quickly to shore up our defenses 
without interfering with the legitimate flow of commerce, and, 
of course, that is always the challenge that we face. Al-Qaeda 
is, after all, seeking to destroy our economy and way of life, 
as well as to kill our people. We must not allow either goal to 
be accomplished. DHS should analyze how government can best 
focus its limited screening resources on the highest risk 
cargo.
    The successes in the risk-based screening of maritime cargo 
could provide a road map for risk-based screening of air cargo. 
Currently, maritime cargo manifest information must be 
submitted to DHS at least 24 hours before a cargo container 
headed to the United States is even loaded on a ship overseas. 
Using this information and other intelligence, the DHS targets 
high-risk cargo for inspection prior to the ship's departure to 
this country.
    In sharp contrast, air cargo manifest information is 
required to be submitted only 4 hours before the cargo arrives 
in the United States. That is a major difference, and it means 
that the information is often transmitted to DHS while the 
aircraft is in the air, providing no opportunity to conduct 
further inspections of flagged cargo before departure. In some 
ways, that reminds me of the problem with Umar Farouk 
Abdulmutallab, where he was flagged and was going to be 
stopped, but only after he arrived in the United States. It 
seems to me we have a similar problem in the case of our air 
cargo.
    Indeed, Customs and Border Protection has acknowledged that 
based on the shipping information about the two packages from 
Yemen, the agency would have flagged them as high risk upon 
arrival in the United States. But our whole concept is to push 
out our borders so that screening, that flagging of dangerous 
cargo occurs not when the cargo arrives in our country, but 
before it is even put on board a vessel or an aircraft bound 
for this country.
    Now, I recognize that the tempo of the air cargo supply 
chain is different from maritime cargo, but regardless of the 
mode, we have an obligation to examine vulnerabilities in our 
supply chains and to manage risk to those systems.
    There are also opportunities to make better use of the 
private sector in securing air cargo overseas where screening 
efforts are now more limited. Instead of attempting to screen 
almost all cargo at the airport, it could be screened at a 
warehouse where the package is sealed, long before it arrives 
at an airport, and kept secure until it is delivered to the air 
carrier. That is just one idea that would avoid the potential 
delays of trying to do everything immediately prior to loading 
packages on aircraft.
    I mentioned that DHS must constantly reevaluate the 
allocation of its security resources and priorities. In that 
vein, I still remain concerned about the intrusiveness and 
effectiveness of the Advanced Imaging Technology and the 
potential negative health effects. As Mr. Pistole knows, this 
is an issue that I have mentioned to him many times as well as 
to Secretary Napolitano in multiple letters to the 
Administration.
    I believe the Department should independently evaluate the 
health effects of that technology and should consider software 
that is in use at Schiphol Airport in Amsterdam that respects 
travelers' privacy by automatically identifying objects that 
may be threats, but by using featureless images of travelers. 
And to date, the Department's responses to my inquiries have 
been inadequate. Now, I know that Mr. Pistole was on his way to 
view this technology when the plot from Yemen was uncovered, 
and I want to acknowledge that.
    Obviously, our government's first priority is to protect 
our people against terrorism, and the public will accept a 
certain level of intrusion and inconvenience. But DHS should be 
using technology and techniques that are as safe and as 
effective as possible that minimize privacy concerns whenever 
possible.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Administrator Pistole, it is an honor to have you back with 
us, and we welcome your statement now.

     TESTIMONY OF HON. JOHN S. PISTOLE,\1\ ADMINISTRATOR, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Pistole. Thank you, Chairman Lieberman, Ranking Member 
Collins, Senator Levin, and Senator Brown. It is good to be 
here today along with Commissioner Alan Bersin of Customs and 
Border Protection to address the Committee on the role of TSA 
and CBP in the area of air cargo security. I appreciate the 
Committee's leadership and ongoing efforts to ensure the 
security of air cargo and passenger aviation for the American 
people.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Pistole and Mr. Bersin 
appears in the Appendix on page 36.
---------------------------------------------------------------------------
    Three weeks ago, as we have noted, we, and I use the 
collective ``we'' in the broadest sense--Senator Collins 
mentioned the intelligence, law enforcement, aviation security, 
and private sector communities along with homeland security 
communities--disrupted this attack when the individuals we 
believe to be al-Qaeda in the Arabian Peninsula (AQAP) 
concealed and shipped explosive devices hidden in toner 
cartridges.
    The two packages were shipped from Yemen destined for the 
United States, and the episode for us began on the night of 
October 28, Thursday night, around 10:30 when I received a call 
from John Brennan, the White House Coordinator for Homeland 
Security and Counterterrorism, regarding specific credible 
intelligence that we know is so rare in this business as to 
exact packages that should be identified and assessed. So, of 
course, we worked through the night and over the next few days, 
staying in close contact with our colleagues throughout the 
U.S. intelligence and law enforcement communities and our 
international counterparts and, of course, the private sector, 
including cargo shippers such as FedEx and UPS.
    As a first step, I immediately grounded all air cargo 
packages coming from Yemen. After the initial response, we took 
additional steps in conjunction with CBP. For example, we--CBP, 
TSA, and our private sector partners--quickly identified and 
located all other U.S.-bound packages from Yemen that were in 
transit, and CBP, working with the Joint Terrorism Task Forces 
(JTTFs) located and identified those packages and ensured they 
were not a risk, such as the other two toner packages. And then 
with the community, we refined the targeting tools we used to 
provide additional focus on current threats.
    I sent out a team of TSA security inspectors to Sana'a to 
work with the Yemeni authorities to provide cargo screening 
guidance, expertise, and actual explosive trace detection 
equipment to the Yemeni government. I leveraged a previously 
planned speech that I had to the Aviation Security World 
Conference in Frankfurt, Germany, from where I was supposed to 
go from Amsterdam, but I took that part out, and I gave that 
speech and met with counterparts from Europe and elsewhere 
around the world. While there, I met with the International Air 
Transport Association (IATA) Director General, Giovanni 
Bisignani, a world recognized expert in the area, along with 
the head of aviation security for the International Civil 
Aviation Organization (ICAO).
    From there, I went to Yemen 5 days after we became aware of 
the plot to meet with the TSA team, the U.S. country team, 
including Ambassador Gerald Feierstein, and Yemeni authorities, 
including the Deputy Prime Minister, the Minister of Transport, 
and other Yemeni government officials.
    Several days later, on November 2, Secretary Napolitano 
spoke with leaders of the international shipping industry, 
including UPS, DHL, FedEx, and TNT, as well as IATA and 
Director General Bisignani about enhancing air cargo security 
without unduly disrupting the critical air cargo supply chain.
    And then on November 8, we announced that air cargo from 
Yemen and Somalia would be banned from flights to the United 
States for the immediate future. We also indicated that no 
high-risk cargo would be allowed on passenger aircraft inbound 
to the United States, and, of course, toner and ink cartridges 
weighing 16 ounces or more, around 500 milligrams, would be 
prohibited on domestic passenger flights and international 
passenger flights inbound to the United States. Also, all high-
risk cargo would receive additional and enhanced screening, 
including inbound international mail packages--we worked with 
the Postmaster General on some of the issues to implement 
that--which must be screened individually and certified to have 
come from an established postal shipper. So these are just some 
of the steps we have taken, and those steps will continue.
    I would note that since August 2010, we have required, as 
was noted, 100 percent screening of all air cargo transported 
on domestic air carriers departing from U.S. airports. We have 
worked, as Senator Collins outlined, in large part through the 
Certified Cargo Screening Program, where we have over 1,100 
private companies here in the United States to do screening 
away from the airport. Actually, just over 51 percent now of 
all air cargo flying out of the United States or leaving 
domestically is done through these private screening facilities 
that we certify, we inspect, and ensure that they are----
    Chairman Lieberman. Excuse me for interrupting. Is that for 
passenger planes and cargo planes?
    Mr. Pistole. It is right now for passenger planes, and we 
are looking at the possibilities with cargo, recognizing that 
FedEx and UPS, of course, the two large ones here, have their 
own screening regimen and do a very good job independent of 
what we would do, which is obviously in their best interest, 
also.
    This very practical security program keeps commerce moving 
without creating screening bottlenecks at the airports, and we 
are looking at that as a worldwide model for implementation. It 
is just an issue of capacity development.
    There are a number of different issues that we are 
addressing, which I can get into in more detail in response to 
questions, perhaps. I would just note that since June 2009, CBP 
and TSA have met extensively on leveraging CBP's Automated 
Targeting System (ATS) to better target high-risk cargo on 
international inbound passenger flights, and these efforts 
complement our continued diplomatic work with our international 
counterparts to improve screening on these flights.
    Thank you again for the opportunity to be here today. I 
look forward to working with the Committee as we pursue these 
collective efforts. I would be glad to take your questions 
afterward.
    Chairman Lieberman. Thanks, Administrator Pistole.
    Commissioner Bersin, thanks for being here, and we welcome 
your testimony now.

TESTIMONY OF HON. ALAN D. BERSIN,\1\ COMMISSIONER, U.S. CUSTOMS 
  AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Bersin. Thank you, Mr. Chairman, Ranking Member 
Collins, Senators Levin, and Brown. I join Administrator 
Pistole in acknowledging and appreciating this Committee's 
leadership and support in exploring the gaps and the deficits 
that we have so that we can more effectively confront 
terrorism.
---------------------------------------------------------------------------
    \1\ The joint prepared statement of Mr. Pistole and Mr. Bersin 
appears in the Appendix on page 36.
---------------------------------------------------------------------------
    I would like to address in this statement three dimensions 
of CBP's work. First is the air cargo processing that we 
currently engage in. The second is, building on Administrator 
Pistole's testimony, CBP's response to the October 29, 2010, 
event. And then last, the partnership with TSA and the way 
ahead and the steps that we are contemplating taking together.
    First, with regard to air cargo, it arrives in this country 
in two ways, on commercial passenger flights in the hold, in 
the belly of our cargo jets, or within specifically designated 
cargo-only aircraft. In fiscal year 2010, CBP processed nearly 
334,000 such flights and inspected and screened over 57 million 
regular and express air waybill records. This is a massive part 
of our international trade policy and economy.
    Currently, as pointed out by Senator Collins, our systems 
and processes are designed to identify high-risk cargo for 
inspection after their arrival in the United States. They are 
not designed to identify dangerous cargo prior to takeoff, as 
is our regime in the maritime context.
    Under the Trade Act of 2002, carriers currently must 
provide cargo manifest data 4 hours prior to arrival of the 
aircraft or at wheels up for flights arriving from embarkation 
points less than 4 hours from the continental United States. 
Upon receipt of the advance manifest data, CBP processes the 
information through its Automated Targeting System. The system, 
as you know, identifies potential threats related to terrorism, 
narcotics, hazardous materials, and other areas of concern to 
the agency and to the Nation.
    ATS is the primary platform used by the Department of 
Homeland Security to match travelers and goods against 
screening information and specific intelligence that may be 
received. It is used by our air cargo advance targeting units 
at local airports to conduct risk assessments. It is also used 
by our National Targeting Center-Cargo located in Virginia, 
which conducts high-level sweeps for shipments of concern based 
on intelligence and specific targeting rules that are written 
to reflect present and prospective threats that we perceive 
through intelligence or otherwise. These rules identify risk 
factors that are present in the manifest data that we receive 
from the carriers. Each of these risk factors receives a 
quantitative value, or a score, and if the shipment exceeds a 
predetermined score or threshold for national security concern, 
we place the shipment on hold. We conduct an examination upon 
arrival.
    Once the cargo arrives in the United States, CBP conducts 
examinations of all such identified high-risk air cargo or 
other cargo identified as high-risk by the local advance 
targeting units. These examinations must include a non-
intrusive inspection if equipment is available, or a physical 
inspection of the shipment, as well as a mandatory radiation 
scan.
    We also partner at CBP with the trade community to enhance 
supply chain security through the Customs-Trade Partnership 
Against Terrorism (C-TPAT) program. Under C-TPAT, importers and 
shippers adopt minimum security standards, which they must 
adhere to throughout their security chain. In exchange, CBP 
treats these shipments as lower risk and provides fewer 
inspections.
    As Administrator Pistole indicated, when we became aware of 
the threat on October 29, we responded immediately by 
identifying all air cargo shipments from Yemen destined for the 
United States, aside from the two that were the subject of the 
inquiries in the United Arab Emirates and in the United 
Kingdom. In effect, what we asked right away was, what more 
could be coming toward us? Who could have been sending it to 
us? And how quickly can we mitigate or neutralize that risk? We 
ascertained the location of each shipment, and we held them for 
inspection. We then completed inspections using X-ray systems, 
explosive detection canines, and explosive trace detection 
equipment.
    As we can go into further in questions and answers, there 
were 38 shipments in total, and we discovered and identified 
those shipments within hours of receiving the threat 
information. Within days, we had located all of those 38 
shipments among the millions of packages that arrived in the 
country, and within a week, we had actually satisfied ourselves 
and cleared those cargoes as a result of techniques of scanning 
that were applied to them.
    So where do we go in the days and the months ahead with the 
help and guidance of experts, including those on this 
Committee? We have, ever since the December 25, 2009, incident 
involving Abdulmutallab, seen a partnership between CBP and TSA 
that has produced valuable results for our Nation and for the 
homeland security. We need to do the same now with regard to 
air cargo. What we believe is that this cooperation is the best 
source of the progress we can make quickly.
    Currently, CBP is providing assistance to TSA to fulfill 
the mandates set forth in the recommendations of the 9/11 
Commission to screen 100 percent of cargo transported on 
passenger aircraft. We are also collaborating to explore the 
potential of utilizing CBP's Automated Targeting System as a 
risk targeting tool in the air cargo context that can be shared 
between CBP and TSA. This will allow us to leverage data and 
information already collected to meet TSA's mission to secure 
international inbound air cargo.
    We also acknowledge the importance of partnering with the 
private sector so that they can lend us considerable assistance 
in securing the supply chain. We also recognize that we must 
receive information in advance of what we are currently 
receiving, and we are working with TSA in determining the 
parameters and, importantly, consulting with our private sector 
partners to get their views as to how they can most 
expeditiously provide that information. It is clear that our 
receipt of manifest data 4 hours prior to arrival does little 
to help prevent dangerous cargo from being loaded aboard.
    Let me abbreviate the statement so we can get on to the 
dialogue of questions and answers. We believe that we have the 
foundation in place to implement a more effective system, and 
we believe that working with TSA and with other agencies in the 
U.S. Government, we can strengthen this system and do it 
relatively quickly. But we should do it cautiously and 
deliberately, and I look forward to working, as I am sure 
Secretary Napolitano and Administrator Pistole do, with this 
Committee and its staff in reaching a satisfactory outcome and 
building the next level of security into our air cargo system.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Commissioner.
    We will go to the questioning now. We will have 7-minute 
rounds for each of the Senators.
    Administrator Pistole, we are focused here on air cargo 
security, but obviously more broadly on the question of 
aviation security, and I want to ask you a question related to 
TSA that is very much in the news, which is the so-called pat-
down procedures that follow and are associated with the use of 
the whole body imaging scanners, which I recall because we held 
hearings on this subject after the Christmas Day bombing 
attempt and most of us were calling for you to go to the whole 
body scanners, either the Amsterdam variety or what you have 
done.
    I wanted to give you an opportunity before the Committee to 
explain the pat-down procedures that have troubled people and 
why you think that they are justified.
    Mr. Pistole. Thank you, Mr. Chairman. There is an ever-
evolving nature of the terrorist plot that has been well 
described here this afternoon. The challenge for TSA and the 
whole U.S. Government and our allies around the world is to 
develop the best techniques and tactics enabled by the best 
technology to detect those plots. As we have heard the various 
plots outlined here this afternoon, it is clear that we have to 
be one step ahead of the terrorists, and obviously, we are not 
always in that situation, as evidenced by the last three plots 
that could have been successful.
    So it really comes down to a balance of partnership on the 
one hand, working with the traveling public, and the security 
and safety issues on the other hand, and what is a proper mix. 
So what we try to do is be sensitive to people's concerns about 
privacy, while ensuring that everybody on every flight has been 
properly screened. We recognize--I particularly recognize--that 
reasonable people can disagree as to what that proper balance 
or blend is between privacy and security and safety.
    That being the case, I think everybody who gets on a flight 
wants to ensure and be assured that everybody else around them 
has been properly screened, and by the way, everybody else on 
that flight wants to make sure that I have been properly 
screened or you have been properly screened. So how do we reach 
that balance? That is the challenge that we go through.
    I believe the advanced imaging technology is the best 
technology we have today to detect the non-metallic device that 
is well designed, well concealed, such as we saw on Christmas 
Day. What I am concerned about, and I know many share this 
concern, is an individual who opts out of the advanced imaging 
technology. Let us say Abdulmutallab had done that, if that had 
been the case in Schiphol, if he had opted out thinking, well, 
I am not going to receive a thorough pat-down so I can get on 
that flight. If that had been successful on Christmas Day, I 
think we might be having a different dialogue here this 
afternoon and in the public.
    What I want to assure and reassure the public is that we 
are concerned about your safety, your security, and your 
privacy. Let us work together in partnership to ensure that we 
can have the best way forward.
    Chairman Lieberman. Let me just take this a moment or two 
more. Just make clear, if you will, to the Committee and public 
who may be listening or watching, how does someone get 
subjected to a pat-down procedure?
    Mr. Pistole. There is a very small number or percentage 
that would actually have the pat-down, and it would really 
occur almost exclusively in situations where somebody has opted 
out of the advanced imaging technology or they have alerted on 
that because there is something still in their pockets, or they 
may be trying to carry some contraband on the plane.
    Chairman Lieberman. In other words, either they have chosen 
not to go through the scanner or they have gone through and 
there is some alert?
    Mr. Pistole. There is an alert, or through the walk-through 
metal detector there is an alert, and so there is some basis 
for doing it. And even with that, it is a very small percentage 
of all the passengers. So very few people, even though the 
public out there may not know because it is a new technique.
    The other thing is I have been in Europe several times in 
the last few months and have observed the pat-downs being done 
in many airports, and it is very similar. Our pat-down approach 
is very similar to what is being utilized in Europe, and as we 
know, it is even much more thorough in other parts of the 
world.
    Chairman Lieberman. Yes. And, of course, you have a same-
gender TSA employee doing the pat-down. This is a difficult 
balance because obviously this has to be a more intimate and 
intrusive investigation because of the choice that has been 
made earlier or what the machine has shown, but I presume they 
are instructed in a way that will determine whether somebody is 
potentially dangerous, but also in doing so try to do minimal 
harm to their privacy.
    Mr. Pistole. Correct. They go through training, and the 
clearest outcome of that training is to be professional and to 
give clear guidance and a lot of clarity as to what they are 
going to do in terms of the actual pat-down and to make sure 
that the passenger understands that and responds to that. There 
has been a lot of publicity out there about a certain 
individual who recently tried to travel but did not want to 
have that pat-down. I think if people get away from just the 
passenger, they would hear that what the security officer was 
saying was very cool, calm, professional, and that is what we 
expect out of our security officers, to do this in a way that 
is professional.
    Again, the bottom line is if you have two planes that are 
getting ready to depart and on one, you say everybody has been 
thoroughly screened on this plane, and you can either go on 
that plane or we have another plane where we have not done a 
thorough screening because people did not feel comfortable with 
that, I think most of, if not all of, the traveling public 
would say, I want to go on that plane that has been thoroughly 
screened.
    Chairman Lieberman. Yes, I agree with you. I think you are 
doing the right thing. I think perhaps the reaction to the pat-
down procedures got ahead of TSA's or the Department's 
description of what you were doing and why you were doing it. 
But if, God forbid, that bomb on Abdulmutallab's body had gone 
off on the plane over Detroit, Congress and, I dare say, the 
public would have been demanding not just the body imaging 
equipment, but pat-downs, and I understand the privacy 
sensitivities, of course.
    It is awkward. It is unusual. On the other hand, we get on 
those planes, and we want to have the confidence that nobody on 
the plane has evaded security in a way that will allow them to 
blow up the plane and kill everybody else on it.
    So this is, unfortunately, the world in which we live. It 
was not our choice, but we have to do everything we can to 
protect the traveling public. I think that what you are doing 
here with the pat-down procedures is difficult, it is 
sensitive, but it is necessary for the homeland security of the 
American people.
    My time is up. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Pistole, let me start with a fundamental question. But 
for the intelligence tip that was provided by our ally, would 
our current security systems have detected these package bombs?
    Mr. Pistole. My professional opinion, no.
    Senator Collins. And so that raises the issue of what can 
we do to make sure that in the future, if there is another 
attempt to exploit the gaps in air cargo security, we have 
closed those gaps because in many ways, we were lucky that we 
had an ally with extremely specific intelligence information 
that allowed us to target these packages before harm was done. 
What is the single biggest change that you think we should be 
making?
    Mr. Pistole. We have high confidence in the known shippers 
and that supply chain, those who do business in the shipping 
industry. There are over 8 billion, almost 9 billion pounds of 
cargo that come into the United States every year, about two-
thirds on cargo planes, such as UPS and FedEx, and the other 
third, over 2.6 billion, on passenger planes. We have high 
confidence, again, in those international shippers with 
established records.
    The challenge becomes those locations, such as these 
individual packages out of Yemen or other hot spots around the 
world where there is not a known relationship with the carrier 
or the shipper, and screening those packages in the same way 
that we would require here in the United States. There are 
several challenges there. One is just the capacity of some 
countries. For example, Yemen, when I visited there a couple 
weeks ago, had an X-ray machine that they use for cargo. But 
they were not using explosive trace detection or a 100 percent 
physical inspection of packages, which we are requiring now. So 
there are a number of issues and challenges there.
    Senator Collins. And with Yemen, I would be worried about 
the people doing the screening and whether they share our 
goals.
    Mr. Pistole. You raise a very good point. So what I was 
describing was the physical screening, but the insider threat--
--
    Senator Collins. Exactly.
    Mr. Pistole [continuing]. What type of vetting and 
validating of those individuals is being done, and that is 
obviously uneven around the globe.
    Senator Collins. Mr. Bersin, I mentioned in my statement, 
and you talked about it, as well, that we have a pretty well 
defined system for the screening of cargo that comes by the 
maritime system. And in that case, 24 hours before the cargo is 
even loaded on the ship overseas, we have a manifest that is 
combined with other information to allow us to identify the 
cargo and target that which may be of high risk.
    Why can we not do that with the air cargo? What are the 
obstacles? I mean, frankly, a system that says we want to know 
4 hours before it arrives at our shores provides very little 
protection. The flight may be already en route.
    Mr. Bersin. Senator Collins, as Mr. Pistole said, one 
method of dealing with this is to segment the traffic between 
cargo and shippers we know from shippers and cargo about which 
we do not know enough or we have adverse information.
    The other method of doing this is the risk management that 
we have applied, and I think effectively so, in the maritime 
context, and the three elements are, as you suggest, first, 
receiving information sufficiently in advance so that we can 
apply our targeting rules and actually attempt to identify the 
high-risk cargo. And then, of course, the third issue is then 
scan or screen using appropriate technology.
    But, in effect, we should be looking at those same 
techniques in the aviation cargo context, and in fact, we have 
begun that process. We will want to customize it, given the 
nature of the trade, the differences between the maritime and 
aviation context. But the broad categories, Senator, are ones 
that give us good guidance.
    Senator Collins. Are you looking at increasing the amount 
of time before cargo is shipped to our country where you 
receive a listing of the cargo? The 4 hours strikes me as 
something that you could change immediately. For example, in 
response to the Times Square bomber attempt, TSA acted 
immediately to change the update rule on the targeted 
individuals. Are you looking at the 4-hour rule?
    Mr. Bersin. Yes, Senator, we are, and we are working not 
only with TSA and other government partners, but with the 
private sector shippers, the airlines and the cargo carriers, 
to reach a determination about how we can advance that deadline 
for providing information to CBP, and we expect that we will be 
coming up with a revised recommendation in the near future.
    Senator Collins. Mr. Pistole.
    Mr. Pistole. I would just add that it is a pragmatic issue. 
I could issue a security directive today and say 8 hours or 24 
hours or whatever it would be. The question is, are the 
carriers capable of implementing that directive today? That is 
what Commissioner Bersin is referring to in terms of working 
with them. What can they do electronically? A number of the 
smaller carriers around the world are not fully electronic in 
terms of their communications, so how do we actually implement 
that? So clearly, the intent is there. It is how do we make it 
happen.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    We will call on, in order of appearance, Senator Levin, 
Senator Brown, and Senator Burris. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    I want to just pursue Senator Collins' question again. 
Right now, the rule is you have to have your manifest 4 hours 
before the arrival of an airplane, is that correct?
    Mr. Bersin. Yes, for those destinations that are less than 
4 hours from our shores, it is upon wheels up.
    Senator Levin. Now, what are the practical problems with 
increasing that?
    Mr. Bersin. The first is the electronic systems in place to 
get the information to us, but we can work on that over time as 
we have in the passenger context.
    Senator Levin. Well, that is the same whether it is 4 
hours, 6 hours, or 8 hours, is it not? It has to be an 
electronic system to get you the information----
    Mr. Bersin. That is correct, Senator.
    Senator Levin. So you could do 8 hours with the same 
problem, same challenge.
    Mr. Bersin. We could, and we are trying to work out with 
the carriers the best system that would actually provide us 
with the information in an effective advance period. But also--
--
    Senator Levin. Well, that is not a practical problem. What 
is the next problem which is not practical, allegedly?
    Mr. Bersin. Well, the problem of making sure that we are 
getting it as quickly as we can and then getting information 
back to the carrier, putting a hold on certain high-risk cargo 
that would be identified by our targeting rules.
    Senator Levin. Why would 8 hours or 12 hours not help you 
do that?
    Mr. Bersin. It would help us.
    Senator Levin. So that is not a practical reason not to 
increase----
    Mr. Bersin. No.
    Senator Levin [continuing]. Four hours to 8 hours or 12 
hours. I mean, we were told a minute ago there are practical 
problems. I have not heard one yet.
    Mr. Bersin. The practical problems, I think, that Mr. 
Pistole alluded to, and they are, indeed, obstacles, not ones 
that we will not be able to work with the private sector to 
overcome, but there are airlines, as we have seen in the 
passenger data area, that simply do not have the capacity to 
electronically transmit that data to us.
    Senator Levin. Well, that is true whether it is 6 hours, 8 
hours, or 12 hours.
    Mr. Pistole. So, if I could jump in, part of it, Senator, 
is that the carriers themselves do not have that manifest data. 
Sometimes it is only 2 to 3 hours before wheels up.
    Senator Levin. I am saying, if it is required that it be 8 
hours or 12 hours, then they will have the manifest data----
    Mr. Pistole. So that is true----
    Senator Levin. That is not a practical problem. That is 
just saying you have to have the manifest data 8 hours, 12 
hours, or whatever it is prior to wheels up.
    Mr. Pistole. So if there is a last-minute shipment or 
something, that means----
    Senator Levin. Tough luck.
    Mr. Pistole. Yes. Basically, they are out of luck then, 
so----
    Senator Levin. That is true now, too, is it not?
    Mr. Pistole. No, not necessarily.
    Senator Levin. One hour before arrival?
    Mr. Pistole. Well, but if it is 4 hours----
    Senator Levin. Well, last minute shipments, that is tough.
    Mr. Pistole. Yes.
    Senator Levin. What are the other problems, practical 
problems with 8 hours or 12 hours?
    Mr. Pistole. The small carriers around the world. We are 
not talking about UPS, FedEx--in fact, we are working with them 
to provide immediate notification when they receive the 
manifest, whatever the time line. It may be a couple of days.
    Senator Levin. That is not a practical problem, either.
    Mr. Pistole. No, I am saying that is a solution.
    Senator Levin. I have not heard a practical problem yet. I 
am struggling to hear a practical problem for not just saying, 
directive, it is 8 hours, it is 12 hours, whatever. Why can you 
not do that right now?
    Mr. Pistole. For much of the world, we could do that. For 
small carriers that would be dealing with a number of the high-
risk packages, let us say, from Central Asia someplace, their 
system, as I understand, and we could get subsequent experts in 
here to talk about that in a little more detail, would not have 
the capacity to provide that information to CBP more than 4 
hours in advance at this time.
    Senator Levin. Why?
    Mr. Pistole. I would have to defer to experts.
    Senator Levin. The greater the number of hours prior to 
arrival, it seems to me, the easier it is to get the 
information if you are not electronically hooked up, not the 
harder. You have more time. I do not get it, folks. I mean, I 
do not see the urgency in your testimony here. It is such an 
obvious question that I am a little bit dumfounded that we do 
not have a direct answer.
    You say there are practical problems, but we have not heard 
one yet.
    Mr. Bersin. I think the practical problem is going from the 
status quo to where we want to be. I do not think anyone is 
saying that we should not move there.
    Senator Levin. That is not a practical problem. That is a 
matter of issuing a directive saying it is now 8 hours or it is 
now 12 hours.
    Mr. Bersin. Well, the practical problem is that the trade 
will tell you that it has not been done because it has been 
perceived that it would unduly interfere with the commerce in 
the world. When we come to a situation like this, there is an 
urgency, and in fact, we overcome a lot of the practical 
problems that were keeping the situation from being handled 
that way in the past.
    Senator Levin. Well, I have to tell you, I read your 
comment, Mr. Pistole, about the length of time--you say that 
security cannot bring business to a standstill. I do not think 
anyone is suggesting that business be brought to a standstill. 
The question is, is it reasonable to tell people, you have to 
have your package and your documents in 12 hours before a plane 
lands. That does not bring it to a standstill. That just slows 
it down by 8 hours.
    The question is, will the public or the world accept a 
delay of 8 hours in getting something to where it has to go in 
order to have greater security? My answer is, I think, kind of 
like Senator Lieberman's points on the pat-down. Yes. This is 
easier than pat-downs. This is just slowing it down. It does 
not bring it to a standstill.
    I was a little worried about your comment, Mr. Pistole, 
about a delicate balance. The flow of global commerce is key to 
economic recovery. I agree with that. But security cannot bring 
business to a standstill. I do not think anyone is suggesting 
that. It is a straw man, it seems to me, that you are raising, 
and rather than telling us, yes, you do not see any practical 
reason, either, and we are going to get it done, it is sort of 
that, well, we are trying to overcome practical problems, which 
you have not been able to identify, at least to me.
    Mr. Pistole. Well, I agree, Senator, at least in terms of 
your risk management and assessment construct. The issue comes 
down to, if we would impose, for example, on all cargo 
worldwide the same mandates we have here, the estimates I have 
seen are that the cost of doing that would actually exceed the 
revenue from that cargo.
    Senator Levin. Are you saying that increasing 4 hours to 8 
hours----
    Mr. Pistole. No, different issue.
    Senator Levin. Well, I think you ought to get your experts 
to provide for the record what those practical problems are. My 
time is up, but if you do not mind, Mr. Chairman, my suggestion 
is that he provide the Committee for the record what those 
problems are. Thank you.
    Chairman Lieberman. I accept your suggestion and I make 
that formal request of our two witnesses, as soon as you can. 
Thank you. Senator Brown.

               OPENING STATEMENT OF SENATOR BROWN

    Senator Brown. Thank you, Mr. Chairman. It is good to be 
back. Thank you for putting this together, and thank you to the 
witnesses for appearing.
    My concerns are pretty simple. I want to know what tools 
and resources you need to better do your job so we can ensure, 
God forbid, that this does not happen again in terms of the 
extreme possibility of what could have happened. Also, as 
someone who flies and has family members who fly, I want to 
make sure that when I or my family or friends or anyone in this 
country gets on a plane, that the cargo underneath is screened. 
So how common is it to have a full flight of passengers and 
have some extra room on a passenger plane and have that cargo 
then fill that free available space? How common is that?
    Mr. Pistole. Well, if the issue is whether it is screened 
or not, 100 percent of that cargo on passenger flights 
originating in the United States is screened regardless of when 
it is put on.
    Senator Brown. Originating in the United States.
    Mr. Pistole. Right.
    Senator Brown. But what if it is a tail-to-tail transfer 
and it is coming in from Yemen or another country? Where are we 
with that?
    Mr. Pistole. The 9/11 Commission Act required 100 percent 
screening of international inbound cargo on passenger flights. 
The bottom line is we are not there yet because either the host 
countries or civil aviation authorities have not put in the 
same procedures that we have, and there are estimates anywhere 
from two-thirds or perhaps 80 percent of all of that cargo is 
presently being screened. The one take-away, though, is we say 
100 percent of the high-risk cargo is screened, and we do not 
define that publicly because we do not want to provide a 
blueprint, obviously, to how to get out of that. But we look at 
the known shipper issue; how does that work? So it is a good 
point.
    Senator Brown. So for toner cartridges from Yemen, does an 
alarm go off? I mean, we have plenty of toner cartridges here 
and why would we be importing them? Did that not raise a red 
flag?
    Mr. Pistole. It absolutely did, both by the shipper, who 
had identified it as a suspect package--part of the challenge--
--
    Senator Brown. How did it even get on the plane, then?
    Mr. Pistole. Because of different protocols, for example, 
in Sana'a, Yemen, even though the shipper had been identified--
that is why it was segregated in Dubai. So in addition to the 
specific credible intelligence, they had identified it as a 
suspect package. You are absolutely right.
    Senator Brown. And when you asked for the cooperation of 
the various cargo carriers, did you get the cooperation of all 
of them?
    Mr. Pistole. Absolutely.
    Senator Brown. There were no questions asked?
    Mr. Pistole. No. They have been very capable partners and 
looking for solutions that make sense as opposed to us just 
issuing an edict or rule, security directive, that says you 
will do this now. We work very closely with them to do this.
    Senator Brown. So is there going to be an updated or 
improved screening and inspection plan when it comes to those 
tail-to-tail transfers? Is there something you are proposing or 
working on to deal with that gap?
    Mr. Pistole. Yes. So the key is how do we work with our 
international partners, and we do that in several ways. One is 
through the International Civil Aviation Organization, which is 
part of the United Nations. A hundred and ninety countries 
signed off on an aviation security declaration last month in 
Montreal. And then working through the International Air 
Transit Association, and what they are doing is trying to 
leverage their resources in a way that, frankly, builds 
capacity in some of these areas of the world that need 
additional screening protocols or actual explosive trace 
detection equipment, canines, or whatever it may be.
    Senator Brown. I have been to other countries, and you see 
the cargo, and it is just there. It is laying around and anyone 
can get access to it. I think it is going to take a real 
commitment to ensure that our aviation partners--when I say 
partners, I mean people who fly to the United States and 
deliver goods to the United States--take their jobs seriously.
    And I recognize the comments of the two previous 
questioners regarding the timing. Is there a way to ensure 
speed and accuracy when it comes to X-raying and inspecting? Do 
we have the technology to make sure that we do not slow things 
down to a crawl and we can continue on with our superior 
delivery of product throughout the world?
    Mr. Pistole. I say, generally, yes, and that is when it 
comes down to the known shippers, the trusted partners 
throughout the global supply chain. The problematic ones are 
those individual shippers that we do not have any history on--
we do not have any intelligence about who this person is or 
what they are shipping. But as you indicated, when somebody 
ships toner or a computer printer from Yemen to Chicago, that 
is a red flag. So that is exactly the type of information CBP 
is getting through that 4-hour window and what we are seeking 
to get additional time on.
    Senator Brown. And how much air cargo is actually being 
screened today?
    Mr. Pistole. Yes, so 100 percent in the United States on 
U.S. passenger flights----
    Senator Brown. How is it done? Is it through X-rays or 
through dogs, the whole gamut?
    Mr. Pistole. We do it through a series of over 1,100 
certified cargo security screeners, facilities around the 
country away from airports. They use a variety of those, but 
clearly X-ray, perhaps advanced technology X-ray, explosive 
trace detection or physical inspection if necessary. They 
screen it and then transport it, usually just a few miles, in a 
secure fashion to the airport to put on the cargo flights and 
passenger flights.
    Senator Brown. So in conclusion, I just want to try to 
solve the problem. I want to try to figure out what you need to 
get that job done, and whether you come over to the office 
again, either one of you, and deliver that or we have a private 
meeting or however it works, I would like to, Mr. Chairman, 
just know what they need. I mean, we have identified, by the 
grace of God, that we have been very lucky. But at some point, 
we are not going to be that lucky, and I want to be able to say 
to my friends, family, and anyone I meet in Massachusetts that 
I gave you the tools so they are not looking at any one of us 
because this is not about party politics. This is about the 
safety of our citizenry and also the ability to keep commerce 
moving. So if you could maybe post testimony at some point or 
reach out, that would be a big help.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Good idea, Senator Brown, and we will 
arrange for that.
    Senator Burris, from the beginning of your service in the 
Senate to this, apparently your last week with us, you have 
been a most faithful Member of this Committee, probably 
attending more hearings than anybody else, except Senator 
Collins and me, so thank you.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman. That is because of 
the interest in this Committee, and even this topic here has 
really caught my interest because I might not be on point on 
all my quick questions, but I have several concerns about TSA 
as I travel across this country.
    Maybe, Administrator Pistole, you can answer this. How do 
you tell what a high-risk package is? What is the criteria for 
a high-risk package?
    Mr. Pistole. We do not define it publicly because we do not 
want to provide the blueprint for----
    Senator Burris. Thank you. We tell everything else. I mean, 
we let it be known that the Saudis gave us the secret to this. 
We have to stop putting everything out in the--I am sorry. Go 
ahead.
    Mr. Pistole. Thank you, Senator. Yes. So it is generally 
outside the known shipper, trusted shipper arena, and just 
generally, individuals who are shipping packages with no 
history, perhaps from some hot area such as Yemen, the Horn of 
Africa, and places like that. But it is all intelligence 
driven. What intelligence do we know about the shipper? Did the 
person positively identify himself when he came in to drop off 
the package? Was the package physically inspected? What do we 
know about the cargo carrier where the package was dropped off? 
How thorough are they? How thorough is the airport at the cargo 
facility? So a lot of criteria and indicia go into figuring out 
what is a high-risk package.
    Senator Burris. Because those packages were headed to 
synagogues allegedly in Chicago.
    Mr. Pistole. Correct.
    Senator Burris. That is another major concern.
    Let me shift gears just a little bit. On the pat-downs, we 
have some airports that are staffed by contract screeners, is 
that correct? They are not all TSA employees?
    Mr. Pistole. That is correct. There are 17 airports out of 
the 453 that are staffed by contractors, not TSA employees.
    Senator Burris. Now, how do you deal with those pat-downs 
in these airports? Do we have jurisdiction over those 
individuals?
    Mr. Pistole. Absolutely, Senator. They have to follow the 
same protocols and standard operating procedures that we put 
out for all TSA employees.
    Senator Burris. Have they gone through the same training?
    Mr. Pistole. They go through the same training. They are 
identical to the Transportation Security Administration 
officers and behavior detection officers and all the TSA 
employees other than they are working for contractors.
    Senator Burris. Why are there contract employees in Kansas 
City? You all could not find enough TSA people to hire?
    Mr. Pistole. Congress decided that there should be the 
option either to have federalized airports or to have private 
security done, and so there are some Members of Congress who 
feel very strongly about that and want to have additional 
airports that have private security as opposed to TSA.
    Senator Burris. So you said that is written into TSA law--
--
    Mr. Pistole. Yes.
    Senator Burris [continuing]. That they can be private 
contractors?
    Mr. Pistole. It is called the Screening Partnership Program 
(SPP).
    Senator Burris. Mr. Chairman, I do not have much longer in 
the Senate, but we ought to look at these private contractors. 
I am concerned about the number of private contractors, not 
only at TSA, but at the other government agencies, and then I 
am wondering if one of the passengers feels that they have been 
over-screened, just what the liability there would be.
    Would patting down have caught the underwear bomber, in 
your estimation?
    Mr. Pistole. Yes.
    Senator Burris. Not the machine, but the patting down?
    Mr. Pistole. Yes.
    Senator Burris. Because allegedly, it was in a diaper type 
of arrangement.
    Mr. Pistole. Yes.
    Senator Burris. So they are going that deep in terms of 
patting down individuals?
    Mr. Pistole. The pat-downs are based on the latest 
intelligence and the information that we have, and----
    Senator Burris. But there was no intelligence on that 
gentleman that was on the flight to Detroit. He was on the 
plane.
    Mr. Pistole. That is right. That is why we changed the 
policy.
    Senator Burris. Have our personnel received adequate 
training? Mr. Chairman, do we know what will happen with the 
litigation coming out of this? The Pilots Association and the 
Flight Attendants Association are getting ready to bring some 
type of action, as I understand, because of the excessive 
patting down of flight attendants and of pilots. Is that the 
case?
    Mr. Pistole. That has been the case. Pilots have, of 
course, not generally gone through the advanced imaging 
technology because they are allowed to keep their shoes on, and 
that is a different issue. But I have had a number of 
conversations with representatives of pilots' associations, and 
we are actively exploring options as it involves pilots because 
we are using a risk-based approach. It just begs the question, 
if you have somebody who is in charge of the aircraft that can 
put the aircraft down, as could be the case, then why do we 
have the screening for them? So actually, in the near future, I 
will be announcing some new policies on that.
    Senator Burris. That would help. There is also a question, 
Mr. Pistole, about the degree of X-rays that these individuals 
have to go through in the course of their day-to-day work and 
what that will do to their physical health, if they go through 
the X-ray machine rather than the excessive pat-down.
    Mr. Pistole. That is one of the concerns that I think has 
been raised. What I rely on is the scientific literature and 
the studies that have been done using these specific machines, 
including the Food and Drug Administration, National Institute 
of Science and Technology, and Johns Hopkins University. They 
have all done independent assessments of the advanced imaging 
technology machines, the amount of radiation, and I have seen 
several analogies, but one that sticks in my mind is going 
through one of these machines is similar to receiving about 2 
minutes of radiation that you would receive at 35,000 feet on a 
normal flight. So it is very minimal, well within the 
established scientific standards for safety, and we are always 
trying to update that through independent validators and others 
who have opinions about that.
    Senator Burris. And how about the protection of the TSA 
personnel? I mean, if the male officer is accused of grabbing a 
lady's breast or the female officer is getting too close to a 
male's genitals, how are they protected now?
    Mr. Pistole. It's always same gender security officers who 
would do that pat-down, and then people can request a private 
area.
    Senator Burris. Will there be a witness there with that 
pat-down?
    Mr. Pistole. They are welcome to have a witness there 
present.
    Senator Burris. So can the TSA employee request a witness 
employee to be there with her or him when he is patting him 
down or she is patting her down? Can they have personnel with 
them there to protect them?
    Mr. Pistole. It is not our current policy, but unless it 
goes into a private screening area, the closed circuit 
television (CCTV) would capture virtually all of that because 
every checkpoint has CCTV enabled.
    Senator Burris. I see my time is up, but I am also 
concerned about our TSA personnel, and I listen to these 
people. Please take care of the TSA personnel. Some of them do 
not have health insurance. Some of them are working part-time. 
I am listening to these complaints, and as a new Administrator, 
I am counting on you to take care of those people who are going 
to take care of us getting on these airplanes because we cannot 
have disgruntled----
    Mr. Pistole. Absolutely.
    Senator Burris [continuing]. TSA personnel trying to 
protect us on these flights.
    Mr. Pistole. I could not agree with you more, Senator. I 
appreciate your support. Thank you, sir.
    Senator Burris. God bless you.
    Chairman Lieberman. Thank you. Thanks very much, Senator 
Burris.
    Senator Carper has been the senior Senator from Delaware 
since Senator Biden became Vice President. With the seating of 
Senator Coons yesterday, he becomes not only senior in service, 
but the oldest member of the Delaware delegation---- 
[Laughter.]
    And we are going to treat you with a lot more respect. 
[Laughter.]
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman, I think.
    While Senator Burris is still here, I just want to second 
the emotion that was expressed by our Chairman about his 
service here in the U.S. Senate. He is not only a faithful 
attendant and participant in full Committee hearings, but he is 
a terrific Subcommittee Member, and I have been privileged to 
welcome him to our Subcommittee hearings for the last 2 years. 
He is almost always present, at least for part of the hearings, 
asks thoughtful questions, and he is just a joy to serve with, 
so we are going to miss you, my friend. I just want to put that 
on the record.
    Mr. Pistole, how are you doing in your new job? How long 
have you been in your new job?
    Mr. Pistole. Since July 1, Senator, and I am doing very 
well, thank you.
    Senator Carper. Any surprises?
    Mr. Pistole. A lot of challenges, a lot of moving parts, 
but I have been impressed with the quality of the workforce. 
The Senior Leadership Team is outstanding. The interagency work 
is outstanding. And it is a vital mission that people are very 
focused on. Thank you.
    Senator Carper. So is there anything that we in the 
Legislative Branch ought to be doing more of or less of to help 
you and the folks who are serving under you?
    Mr. Pistole. Thank you, Senator. I know there have been 
several issues that have been teed up. I would defer to the 
legislative affairs folks in terms of getting that to staff and 
working on that, but thank you.
    Senator Carper. All right. Uncovering this most recent air 
cargo plot and the failure of other attempted attacks over the 
years tells me that it has become increasingly difficult since 
September 11, 2001, for terrorists to exploit the 
vulnerabilities to our aviation system. At the same time, 
however, some aspects of our response to the foiled attacks are 
at least a little bit worrisome.
    The ban on cargo from Yemen and Somalia and the limits on, 
for example, printer cartridges may be necessary, but they are 
a specific response to a specific failed attack, as you know. 
They follow similar rules put in place over the years related 
to liquids, electronics, and other matters.
    Recognizing that terrorists are still targeting aviation 
and are constantly adapting and changing their methods, what 
are we doing to make sure that we are just as nimble as they 
are and are not spending too much time responding to the last 
disaster? In my old days as a Naval flight officer, we always 
talked about fighting the last war, and we have tried to learn 
to fight the current war or the next war as time goes by. What 
are we doing about making sure we are not spending too much 
time responding to the last disaster?
    Mr. Pistole. Thank you, Senator. My whole approach since I 
took over as TSA Administrator in July is to use a risk-based, 
intelligence-driven approach to make sure that we are informed 
by prior actions and attempted attacks but not dwelling on 
those. We want to make sure there are no other printer 
cartridges out there because if they made two, maybe they made 
more, and maybe they are already in the United States getting 
ready to be sent someplace. So we have to be informed by that 
just as we have to be informed about box cutters on flights or 
liquids that could be explosives or shoe bombs or underwear 
bombs.
    So we have to be informed by all those, but we do not want 
to be limited, and we have to be forward-looking to make sure 
we are not acquiring, for example, the technology today that 
deals with yesterday's threats, but we are trying to 
anticipate, informed by the intelligence from not only the U.S. 
community, but around the world, where we should be going, and 
I think we are doing that.
    Senator Carper. Good. Mr. Bersin, do you want to share a 
thought or two with us?
    Mr. Bersin. Just to add to the Administrator's comments, it 
seems to me that we need to develop a deeper partnership with 
the private sector, that, in fact, given the number of parcels 
that we deal with--last year, as I indicated in the opening 
statement, we dealt with 334,000 flights and 57 million 
packages--we have to recognize that we cannot do this without 
the help of the commercial airlines that carry the cargo, as we 
have enlisted their support in the passenger context, and with 
the express carriers, that we need to make the grand bargain 
with them that would give them earlier release on cargo that is 
assured and help us deal with that smaller percentage that we 
do not have sufficient information on to make a good judgment.
    Senator Carper. Thanks. Administrator Pistole, TSA has been 
receiving a fair amount of negative attention in recent days 
due to the discomfort, as we have heard, of some airline 
passengers with the screening methods that are used at 
airports, specifically the full body scanners and the pat-
downs. You had some considerable discussion on this already, 
and I missed part of that. I do not want to get into a specific 
discussion on how the two procedures are right now, but I do 
want to talk about a program with TSA that could possibly limit 
the number of passengers submitted to more intensive screening.
    My staff and I have learned a lot in recent months about 
TSA's Screening of Passengers by Observation Techniques (SPOT) 
program, which uses, as you know, agency personnel trained in 
behavior detection methods to identify passengers who might 
pose a high risk. I think before your confirmation hearing, we 
actually talked about this a little bit, several months ago. 
But legislation that Senator Brown and I have introduced aims 
to build on and expand this program.
    Can you just take a couple of minutes and discuss with us 
behavior detection training and perhaps the increased use of 
intelligence about transportation security threats, how they 
might be better used to target our efforts at airports.
    Mr. Pistole. Thank you, Senator. I think the use of 
behavior detection officers is a key component in our overall 
layers of security, not a fail-safe or single point of failure 
in any respect, but it is one of those multiple layers that we 
use to help to identify somebody who may be acting suspiciously 
or something that is not quite right. I am a big proponent, 
given my almost 27 years in the FBI, especially having seen 
behavior detection work in terms of interviews and somebody who 
is lying and things like that. I think it is a valuable 
resource.
    The question is, how do we show outcomes if we have not 
identified a putative terrorist, an Abdulmutallab-type? We 
identified him because he was sweating or he was acting 
nervously in response to questions or he saw a canine over here 
and so he decided to go this way, or when he saw somebody 
standing in line being swabbed for explosives, using trace 
detection on his hands, then he backed out of the line. So 
there are any number of indicators that can be helpful.
    As we know, the Israelis do quite a bit in terms of how 
they screen passengers, and behavior detection is one of those 
keys. I am a strong proponent of it, and I am looking to expand 
the program. Thank you for your support.
    Senator Carper. Thanks so much. Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Carper.
    Senator Ensign, welcome. We invite your questions now.

              OPENING STATEMENT OF SENATOR ENSIGN

    Senator Ensign. Thank you very much, Mr. Chairman.
    First of all, I know this hearing is basically on air cargo 
but folks have been getting into a few other areas, so let me 
ask about the enhanced imaging. There have been reports in the 
media that have said certain religious groups want to be 
exempted because of religious, obviously, reasons. Can you 
address that? Are you going to allow certain groups to be 
exempted from that because of religious beliefs?
    Mr. Pistole. Well, Senator, we try to be sensitive to each 
individual and groups that have particular sensitivities, as to 
whether it is headwear or certain garb or sensitivities about 
being viewed or touched and everything. So we try to be 
sensitive to those issues. At the same time, the bottom line is 
we have to ensure that each person getting on each flight has 
been properly screened, and so we have options, such as if 
somebody does not want to go through the advanced imaging 
technology, it is optional. They would just do the walk-through 
metal detector and have a pat-down that would identify any 
possible items. They can request private screening, so if they 
do not want to be screened in public, they can go to a private 
area, have a witness with them.
    And so we try to address those concerns in every way 
possible, recognizing, again, in the final analysis, everybody 
on that flight wants to be assured with the highest level of 
confidence that everybody else on that flight has been properly 
screened, including me, you, and everybody.
    Senator Ensign. I realize this is a difficult question for 
you, but are you going to make no exceptions? I know you are 
trying to reasonably accommodate, but----
    Mr. Pistole. Yes.
    Senator Ensign [continuing]. Within those reasonable 
accommodations, let us just say that my religion does not allow 
me to be touched by somebody else, does not allow me to go 
through that screening. So what happens in those cases?
    Mr. Pistole. A very small percentage of people will 
continue to receive pat-downs. So if somebody comes to the 
airport----
    Senator Ensign. They have to at least go through the pat-
down, if not the screening?
    Mr. Pistole. No. Unless there is an alarm in the walk-
through metal detector or they opt out of the advanced imaging 
technology, they in all likelihood would never receive a pat-
down. The pat-down is only for a very small percentage of 
people.
    Senator Ensign. No. Maybe I am not particularly clear in my 
question.
    Mr. Pistole. OK.
    Senator Ensign. What if somebody is getting a random 
screening. I just got randomly screened at the airport. For 
whatever reason, my number seems to come up quite often. But if 
that happens and the option is either the imaging or the pat-
down, and I do not want either of them because of religious 
reasons, what happens to me?
    Mr. Pistole. While we respect that person's beliefs, that 
person is not going to get on an airplane.
    Senator Ensign. And there will be no exceptions----
    Mr. Pistole. No.
    Senator Ensign [continuing]. Just because of religion. That 
was the answer that I was looking for.
    I want to go back a little bit to cargo, and I know this 
was addressed just a little earlier. When it comes to when you 
have cargo planes then going to passenger planes, that seems to 
me the biggest potential concern because it is not as big of a 
target to take down a FedEx plane or a UPS plane as it would be 
a passenger plane. I think, in all reality, we all recognize 
that, and from what I understand, you are working on all cargo 
being eventually screened. Since we screen going out but we are 
not screening all cargo coming in, when will we get to that 
point?
    What is the schedule?
    Mr. Pistole. There are two aspects, Senator. One is all 
cargo going on passenger planes, and there are various 
estimates between two-thirds and 80 percent that is coming 
internationally into the United States that is screened. I do 
not have a way of validating that or verifying that, so that is 
really self-reporting from airlines and cargo companies.
    The all-cargo is largely unregulated. Now, what we have 
done since the most recent events in Yemen with the printer 
cartridges is issue rules that limit cargo with a final 
destination in the United States as to what that may be, so we 
differentiate between known shippers and high-risk shippers, 
those individuals and things coming from certain areas and 
things like that. So those are the two areas.
    In terms of the time frame, we are----
    Senator Ensign. I know you are going as fast as you can.
    Mr. Pistole. That is the bottom line, and it really comes 
down to building capacity in certain parts of the world that 
currently do not have that 100 percent capacity like we have 
here.
    Senator Ensign. I see. And I understand that you are 
dealing with some of the most difficult issues on security that 
you could possibly have because the terrorists are always 
looking for ways to--as soon as we come up with one security 
system, they come up with another. Could you address the use of 
dogs and the bomb-sniffing capabilities? Dogs have very 
sensitive noses, but at the same time, there are ways to get 
around those, depending on how you wrap the packages and 
various things like that. Just kind of explain a little bit, 
without letting terrorists know exactly what we are doing----
    Mr. Pistole. Right.
    Senator Ensign [continuing]. About the role that canines 
versus other types of detection techniques are being used.
    Mr. Pistole. The bomb-sniffing dogs, the canines, do play 
an important role in the overall screening here in the United 
States. It is uneven around the world, of course. We are the 
leaders here. There are really two types. One can detect the 
actual explosives in this box. Then there is vapor wake. If 
somebody has been carrying a bomb like the July 7 bombers in 
2005 in London, in their backpacks before they got on the 
London Tube, dogs trained in vapor wake would actually be able 
to pick up that scent after they have walked by, as long as the 
air has not been too disturbed and things like that. Those are 
the two main approaches.
    The challenge is to have enough dogs in enough locations 
worldwide to make a meaningful difference, especially in those 
high-risk areas. We need not only a trained dog, but a trained 
handler. It is a terrific technology enhancer for us. It is 
really the question of scalability.
    Senator Ensign. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Ensign.
    Last week, I was in Afghanistan to visit our troops, and I 
saw a remarkable demonstration of a bomb-sniffing dog there. 
These dogs are really extraordinary and saving lives every day.
    Senator Ensign. Well, it is only because of the outstanding 
veterinary care that they get from my profession.
    Chairman Lieberman. Without question. [Laughter.]
    I had no idea I was being set up to set you up. [Laughter.]
    Gentlemen, I have a few more questions, if I might. Going 
on the basis of public reports at this public hearing, it 
appears that the two bombs shipped from Yemen last month were 
screened and cleared perhaps more than once. And I wanted to 
ask you, as a result, is TSA or CBP, but I will focus on TSA, 
reviewing and reevaluating what types of screening it uses or 
certifies in light of that tough reality?
    Mr. Pistole. Mr. Chairman, you have hit on a key point in 
terms of the specific screening that was done in those two 
instances in Dubai and the United Kingdom and then how that 
informs our actions and our judgments. We have reviewed the 
forensics and the screening that has been described to us, so 
we are doing that. And as you note, because of the 
sensitivities of that, I would defer to a closed hearing in 
terms of discussing those details. But yes, we are informed by 
and taking actions that are consistent with what we found.
    Chairman Lieberman. Understood. This is consistent with 
what Senator Brown asked before. In this coming budgetary 
round, if you feel you need more funding support for research 
and development or grant programs to develop better technology 
for screening, please do not hesitate to ask us.
    Mr. Pistole. Thank you, Mr. Chairman. And in response to 
what Senator Collins mentioned earlier in terms of the 
automated target recognition, if I could just use that----
    Chairman Lieberman. Yes, please do.
    Mr. Pistole. We are aggressively testing that currently 
here at our Transportation Security Integration Facility at 
Reagan National Airport, just south of the airport. We are 
cautiously optimistic as far as that being the next generation 
of advanced imaging technology, and the nice thing is that it 
is basically a software modification to our existing hardware. 
The issue is the high rate of false-positives that we have 
seen. So we are trying to work through that, and I am not ready 
to request funding for that until we ensure that those false-
positives are lowered and it is an effective tool because if 
there are high false-positives, the result is pat-downs.
    Chairman Lieberman. Yes.
    Mr. Pistole. So we are trying to get away from that 
construct to say, yes, this is the best technology. It clearly 
addresses the privacy issue. It actually creates efficiencies 
for us. We do not need a separate screener in a separate room 
for privacy issues.
    Chairman Lieberman. Right.
    Mr. Pistole. So, yes, thank you. We are exploring that.
    I would say the biggest issue is on security inspectors 
worldwide, and that is where we are working with, obviously, 
the Department of Homeland Security, the Office of Management 
and Budget, and the Administration, to move forward in that 
area.
    Chairman Lieberman. Which means to try to convince and 
influence other countries to do a better job at screening cargo 
coming into the United States.
    Mr. Pistole. Exactly.
    Chairman Lieberman. So I just want to get on record, and I 
think it probably is clear, that this next generation of 
imaging systems, in the original imaging portion of its 
process, is more protective of privacy.
    Mr. Pistole. It is basically a stick figure.
    Chairman Lieberman. Yes.
    Mr. Pistole. It is either a stick figure or a blob, so yes.
    Chairman Lieberman. But if an alarm goes off there----
    Mr. Pistole. Right.
    Chairman Lieberman [continuing]. It still requires a pat-
down.
    Mr. Pistole. Yes, although specific. So with the Automated 
Target Recognition, it will show a box, for example, in the 
area of the body where there is an anomaly.
    Chairman Lieberman. Right.
    Mr. Pistole. And so it can be targeted for that area. So it 
may be someplace else.
    Chairman Lieberman. So it may limit the area of the pat-
down.
    Mr. Pistole. It might.
    Chairman Lieberman. But, as you said, your concern now is 
that there may be a higher rate of false-positives so that in 
the end, there would actually be more pat-downs.
    Mr. Pistole. Right.
    Chairman Lieberman. I hope you will keep us posted on that.
    I know that on November 8, the TSA issued the Security 
Directives and Emergency Amendments, and they were designed to 
reduce the risk to the aviation network by limiting the ability 
to transport ink or toner and also preventing all shipments 
from Yemen and Somalia for at least the next month. And I know 
that one way--trying to balance what we talked about before 
about the time by which you get the manifests to balance the 
interest in security against the interruption of commerce is, 
of course, to have higher standards, as we do in the movement 
of cargo coming from certain countries.
    But the question obviously arises, and we have watched this 
with people, too, what do we do if the terrorists understand 
that and then start to move their cargo through interim points 
in Europe or Asia? Mr. Bersin, that is for you.
    Mr. Bersin. Yes. I think in terms of the risk management 
there, you pointed out that, unlike the passenger context, 
packages do not carry those characteristics except insofar as 
we get advance information. What we need to do is actually get 
more specific information earlier so that our targeting rules 
can adapt. But you are exactly right. The high-risk packages 
could as easily come from Europe as they could from the Persian 
Gulf, as they did in this particular case. We need to adjust 
the targeting rules to be able to pick up high-risk cargo from 
wherever it comes toward the homeland.
    Chairman Lieberman. And are we intending to do that?
    Mr. Bersin. Yes, sir.
    Chairman Lieberman. Yes. And, of course, that, too, puts an 
emphasis on good intelligence. There is obviously nothing 
better than having the kind of information that we had in this 
case to target and move those packages out.
    Is there anything being done on that? I will go back to a 
question I asked at the beginning of the hearing. I know we 
have worked very hard in the post-September 11, 2001, reform of 
our intelligence apparatus, and we are doing much better than 
we have before, both in gathering information and in sharing 
it. Is there anything from the perspective of your two agencies 
that you have asked of the intelligence community--obviously, 
be more general than specific here--that relates to cargo, for 
instance, information related to cargo? Is there something 
different about intelligence gathering that you are looking 
for?
    Mr. Bersin. Without being specific, Senator, the answer is 
yes with regard to informing the targeting rules that we use 
out of the National Targeting Center.
    Chairman Lieberman. Let me ask this. If I understand this 
intricate world, CBP actually gets more information generally 
about inbound air cargo than TSA does.
    Mr. Bersin. Under the 2002 Act and the regulations CBP has 
imposed on the 4-hour requirement----
    Chairman Lieberman. Right.
    Mr. Bersin [continuing]. The information comes to the 
Targeting Center. But I think it is fair to say, and it is one 
of the great developments, that, in fact, we have been fairly 
seamless and will become even more seamless in terms of that 
information being able to inform TSA activities.
    Chairman Lieberman. Yes, that was my question. Are you 
cooperating and sharing information between CBP and TSA.
    Mr. Bersin. Absolutely, Senator.
    Chairman Lieberman. You are getting what you need?
    Mr. Pistole. Absolutely right. Great relationship.
    Chairman Lieberman. Good. A final question, just broader. 
It goes back to something else I asked at the beginning, which 
is how do we--this is the imagination, the evil imagination. 
Institutionally, is there somewhere now within your two 
agencies, within DHS or the intelligence community, and if not, 
should there be, where we are trying to think like the 
terrorists?
    Obviously, this is very difficult in an open society like 
ours, in a globally connected world both in terms of ease of 
movement of people and cargo, but still, the record is as I 
stated. We do seem to respond to the last attack, 
understandably. Of course, I am grateful that we do. But is 
there some way we can gear the system so that we get ahead of 
what they are going to try to do to us next?
    Mr. Bersin. Just the nature of the targeting enterprise 
requires that you attempt to do that. It typically is better 
informed when there is intelligence. But, in thinking about the 
risks and the gaps that exist now, something we have not talked 
about at great length here but that we need to explore 
downstream, would be international mail, for example.
    Chairman Lieberman. Right.
    Mr. Bersin. It is not subject to much of the kinds of 
safeguards and risk management techniques that we have. So to 
that extent, yes, we try to keep ahead, recognizing the 
difficulty of that challenge.
    Chairman Lieberman. Are there people in CBP or TSA who are 
charged specifically with doing that?
    Mr. Bersin. As I say, in the targeting exercise----
    Chairman Lieberman. In the targeting area, OK.
    Mr. Bersin [continuing]. We have people doing that all the 
time.
    Chairman Lieberman. Mr. Pistole.
    Mr. Pistole. And I would simply add, Mr. Chairman, that 
there are people within the TSA Office of Intelligence and our 
explosives group, and I would share a paper with you in a 
closed setting, who are basically red celling the whole issue 
of what is the next target, and this is done by our explosive 
experts informed by intelligence and working within the entire 
community. So the National Counterterrorism Center, the Office, 
the Bureau, the Agency, and the National Security Agency, 
everybody is saying, what is the next possibility and then what 
do we do with that to inform the judgments and actions of our 
folks. I think you would find that paper interesting. It is 
just several pages. It says, what if and how can they do that, 
given what we know, how they are using pentaerythritol 
tetranitrate (PETN), how they used acetone peroxide (TATP) on 
December 25, lead azide most recently, so all those things, 
taking that, what is the next type of device we are looking 
for?
    Chairman Lieberman. That is very reassuring to me, and I 
hope it is reassuring to anybody who is hearing it. That is 
exactly the kind of thing I was hoping to hear, that we are 
doing the kind of, the military says red teaming, 
appropriately, you are saying red celling, but it is the same 
basic idea.
    I thank both of you for your testimony. I thank you for 
what you are doing. Well, first, I would ask you to respond as 
soon as you can to the few questions that we asked for more 
information. Perhaps when we come back after Thanksgiving--we 
do not know exactly how long we will be here--it would be 
helpful to do a closed meeting with the two of you.
    Do either of you want to say anything before we adjourn the 
hearing?
    Mr. Pistole. I would just like to take the opportunity, Mr. 
Chairman, to appeal to the American people traveling next week 
for Thanksgiving, with all the people going home to see family 
and friends, to really look at this as a partnership----
    Chairman Lieberman. Right.
    Mr. Pistole [continuing]. Between you and the U.S. 
Government, particularly TSA. Those security officers are there 
to work with you to ensure that everybody on that flight has 
been properly screened. Everybody wants that assurance. So just 
try to be patient and work with our folks. They are there to 
protect you and your loved ones, and let us make it a 
partnership. Thank you.
    Chairman Lieberman. Well said. Thank you for saying that.
    We will keep the record of the hearing open for 15 days for 
additional questions and answers and statements.
    Without anything else to say, the hearing is adjourned.
    [Whereupon, at 4:55 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
